   October 16, 2006




Logistics
Use of DoD Resources Supporting
Hurricane Katrina Disaster
(D-2007-002)




            Department of Defense
           Office of Inspector General
Quality               Integrity      Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
DCO                   Defense Coordinating Officer
DLA                   Defense Logistics Agency
DSCA                  Defense Support to Civil Authorities
EMAC                  Emergency Management Assistance Compact
ESF                   Emergency Support Function
FEMA                  Federal Emergency Management Agency
JRSOI                 Joint Reception, Staging, Onward Movement, and Integration
JTF                   Joint Task Force
NRP                   National Response Plan
USNORTHCOM            U.S. Northern Command
                            INSPECTOR GENERAL
                           DEPARTMENT OF DEFENSE
                             400 ARMY NAVY DRIVE
                        ARLINGTON, VIRGINIA 22202-4704




                                                                         October 16,2006


MEMORANDUM FOR ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)
               AUDITOR GENERAL, DEPARTNJENT OF THE ARMY
               NAVAL INSPECTOR GENERAL
SUBJECT: Report on the Use of DoD Resources Supporting the Hurricane Katrina
         Disaster (Report ]Yo. D-2007-002)

      We are providing t h s report for review and comment. The Under Secretary of
Defense for Policy and the Assistant Secretary of Defense for Special Operations and
Low-Intensity Conflict did not respond to the drafi report; however, we considered
comments fiom the U.S. Northern Command when preparing the final report.
       DoD Directive 7650.3 requires that all recommendations be resolved promptly.
We request additional comments on Recommendation 1 and Recommendation 2.
Therefore, we request that the Under Secretary of Defense for Policy and the Assistant
Secretary of Defense for Special Operations and Low-Intensity provide comments on
Recommendations 1. and Recommendations 2. by November 1,2006.
        If possible, please send management comments in electronic format (Adobe
Acrobat file only) to Audros@,dodi~.osd.inil. Copies of the management comments must
contain the actual signature of the authorizing official. We cannot accept the I Signed I
symbol in place of the actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SPRNET).
         We appreciate the courtesies extended to the staff. Questions should be directed
to Donald A. Bloomer at (703) 604-8863 (DSN 664-8863) or Mr. Keith M. Owens at
(703) 604-8865 @SN 664-8865). If management requests, we will provide a formal
briefing on the results. For the report distribution, see Appenhx L. The team members
are listed inside -theback cover

                             By direction of the Assistant Inspector General for Auditing:




                                             Assistant Inspector General
                                             Readiness and Operations Support
                    Department of Defense Office of Inspector General
Report No. D-2007-002                                                                  October 16, 2006
      (Project No. D2006-D000LA-0009.000)

          Use of DoD Resources Supporting the Hurricane Katrina Disaster


                                        Executive Summary

Who Should Read This Report and Why? DoD personnel responsible for providing
support to civil authorities supporting the National Response Plan should read this report
because it provides information on DoD and civilian response in support of emergency or
disaster relief efforts.

Background. We performed the audit in response to a September 2005 request by the
Principal Deputy Inspector General, DoD to assess the use of DoD resources in providing
relief efforts in support of the Hurricane Katrina disaster, and the impact on readiness
resulting from the DoD resources affected by Hurricane Katrina and those supporting the
relief efforts.

The Secretary of Homeland Security is responsible for coordinating Federal operations
within the United States to prepare for, respond to, and recover from major disasters and
other emergencies. The Federal Emergency Management Agency, who represents the
Secretary of Homeland Security, manages the Federal response and recovery efforts
following any national incident.

The Assistant Secretary of Defense (Homeland Defense) is the executive agent for
Homeland Security with overall supervision for DoD homeland defense activities. The
U.S. Northern Command is the DoD-supported combatant command† for civil support
within the United States. Active and Reserve Component military personnel are the
supporting forces to the National Response Plan and provided Hurricane Katrina disaster
relief efforts after the capabilities of the Federal Emergency Management Agency, the
primary Federal agencies, and State and local first responders were exceeded.

DoD has military resources that may be used in responding to a domestic crisis.
However, there are limitations and restrictions on providing military support to civil
authorities within the United States and its Territories. DoD Directive 3025.1 states that
DoD Components cannot procure or maintain supplies, materiel, or equipment
exclusively for providing military support to civil authorities and emergencies unless
otherwise directed by the Secretary of Defense.

Results. The Governors of Alabama, Florida, Louisiana, and Mississippi requested relief
assistance from the President, who declared and issued Presidential Disaster Declarations
by August 29, 2005. The Presidential Disaster Declarations authorize Federal agencies to
support State disaster relief efforts. The response to the Hurricane Katrina disaster along
the U.S. Gulf Coast area on August 29, 2005, was the first opportunity for the
†
    A supported combatant command has primary responsibility for all aspects of a task that the Joint
    Strategic Capabilities Plan or other joint operation planning authority assigns. A combatant command is
    a unified or specified command under a single commander established by the President.
Department of Homeland Security, Federal Emergency Management Agency to execute
the National Response Plan supported by DoD Federal forces. Although DoD provided
overwhelming support when requested, lessons learned identified where the U.S.
Northern Command can improve its immediate response and support to the Federal
Emergency Management Agency and civil authorities during future natural or manmade
disasters.

Specifically, the U.S. Northern Command should improve its planning, coordinating,
training, and exercising with DoD Components and the primary Federal agencies
responsible for supporting the National Response Plan. Areas where the U.S. Northern
Command can improve its support to civil authorities include:

       •   planning and coordinating military support to civil authorities,

       •   developing a plan for the joint reception, staging, onward movement and
           integration of military forces,

       •   standardizing interoperable communication architectures,

       •   coordinating DoD logistics commodity support to the Federal Emergency
           Management Agency, and

       •   training and exercising DoD Components and Federal agencies in support of
           the National Response Plan.

Improvements in those areas, if implemented, will enable DoD to continue to provide
timely assistance to civil authorities during future disaster relief efforts.

Management Comments. We issued the draft report on August 7, 2006. The Under
Secretary of Defense for Policy and the Assistant Secretary of Defense for Special
Operations and Low-Intensity Conflict did not comment on the draft report. The Under
Secretary of Defense for Policy and the Assistant Secretary of Defense for Special
Operations and Low-Intensity should submit management comments for final report by
November 1, 2006.

The U.S. Northern Command Inspector General concurred with the findings and
recommendations. The U.S. Northern Command is collaborating with the Department of
Homeland Security/ Federal Emergency Management Agency and other primary Federal
agencies to improve training and exercises to prepare military forces to respond during
future domestic natural disasters. Specifically, DoD is collaborating with the Department
of Homeland Security to develop a National Level Exercise program based on the 15
National Planning Scenarios to improve the future training of military resources during
domestic natural crisis. See the Findings section of the report for a discussion of the
management comments and the Management Comments section of the report for the
complete text of comments.




                                            ii
Table of Contents

Executive Summary                                                              i

Background                                                                     1

Objectives                                                                     4

DoD Civil Support to Hurricane Katrina                                         5


Appendixes
     A.   Scope and Methodology                                               16
     B.   Glossary                                                            17
     C.   DoD Civil Support Guidance                                          19
     D.   National Response Plan Emergency Support Functions                  20
     E.   Presidential Disaster Declarations                                  21
     F.   Relationships Between Title 10 Forces and the National Guard        22
     G.   Timeline of DoD Significant Events                                  23
     H.   Federal Emergency Management Agency Mission Assignments for
          DoD Resources                                                       24
     I.   Accomplishments and Equipment of Title 10 Forces and the National
            Guard                                                             25
     J.   Strength of National Guard Forces in the Joint Operations Area      26
     K.   Strength of Title 10 Forces in the Joint Operations Area            27
     L.   Report Distribution                                                 28


Management Comments
     U.S. Northern Command                                                    31
     U.S. Air Force                                                           51
     U.S. Transportation Command                                              52
     National Guard Bureau                                                    53
Background
           Hurricane Katrina Disaster. Hurricane Katrina was one of the most destructive
           natural disasters in U.S. history. Its strong winds created a storm surge that
           reached a height of 27 feet along the Gulf Coast from Mobile, Alabama to New
           Orleans, Louisiana that affected more than 90,000 square miles and displaced
           more than 1.5 million people. The storm surge caused flooding that toppled and
           breached the New Orleans levee system and floodwalls, leaving 80 percent of the
           city under water and flooding more than 180,000 homes. Hurricane Katrina
           caused widespread damage and destruction to critical communication nodes,
           power plants, gas and oil utilities and services, water treatment plants, hospitals,
           government facilities, and transportation infrastructure in Mississippi, Louisiana,
           and parts of coastal Alabama. Major highways and bridges in and around
           Mississippi and Louisiana were impassable.

           The aftermath of Hurricane Katrina caused widespread damage and destruction to
           critical infrastructure in Mississippi, Louisiana, and parts of coastal Alabama on
           August 29, 2005. This extensive damage throughout the Gulf Coast area affected
           first responders at State and local levels. State and local capabilities to provide
           disaster relief were quickly exceeded, resulting in the need for an immediate
           Federal response and support from the Department of Homeland Security, Federal
           Emergency Management Agency (FEMA), and DoD military support from
           U.S. Northern Command1 (USNORTHCOM) to civil authorities. On
           August 30, 2005, the Secretary of Homeland Security declared Hurricane Katrina
           an Incident of National Significance.2

           Federal Civil Support Guidance. Guidance in the Robert T. Stafford Act, dated
           October 30, 2000, governs how DoD will respond to a natural or manmade
           disaster, or emergency within the United States and its Territories. The guidance
           states that the Federal government is to provide orderly assistance to State and
           local governments in carrying out their responsibilities to alleviate the suffering
           and damage resulting from disasters. The Robert T. Stafford Act also authorizes
           the President to provide DoD resources for relief efforts. See Appendix C for
           additional guidance governing DoD civil support.

           Department of Homeland Security. Established on November 25, 2002, the
           Department of Homeland Security is responsible for coordinating Federal
           operations within the United States to prepare for, respond to, and recover from
           terrorist attacks, major disasters, and other emergencies. Within the Department
           of Homeland Security, FEMA is the agency responsible for coordinating the
           Federal response to a natural disaster or emergency within the United States and


1
    U.S Northern Command is the combatant command whose area of responsibility is the continental United
    States, Canada, Mexico, and portions of the Caribbean region.
2
    An Incident of National Significance is an actual or potential high impact event that requires a
    coordinated and effective response by an appropriate combination of local, State, Tribal, Federal,
    nongovernmental, private entities to save lives and minimize damage, and provide the basis for long-term
    community recovery and mitigation activities.

                                                      1
           its Territories. Its mission is to prepare the nation for all hazards and to manage
           the Federal response and recovery efforts after any national incident.

           The Department of Homeland Security issued the National Response Plan (NRP)
           in December 2004, outlining Federal responsibilities for coordinating civil and
           military responses to natural and manmade disasters. The NRP enables all levels
           of Government to work together efficiently and effectively to manage domestic
           incidents. The NRP lists 15 Emergency Support Functions (ESFs) and assigns a
           primary Federal agency to support those functions based on authorities, resources,
           and capabilities. See Appendix D for a complete list of the “National Response
           Plan Emergency Support Functions” and the primary agency for each function.
           Primary Federal agencies prepare plans and procedures to support the ESFs. The
           NRP identifies DoD as a supporting agency for all 15 ESFs. In addition, the NRP
           states that DoD has significant resources that may be available to support the
           Federal response to an emergency or disaster. FEMA initiated requests for
           Federal military support to civil authorities before and after the President of the
           United States issued a disaster declaration for Hurricane Katrina. Hurricane
           Katrina was the first opportunity for FEMA to use the NRP with the support of
           DoD Federal forces.

           During Hurricane Katrina, FEMA requested Federal military support to civil
           authorities. FEMA uses the mission assignment process for requesting DoD
           resources. The process involves FEMA submitting a valid request for assistance
           for approval by the Secretary of Defense. The following conditions must occur
           before there is a FEMA mission assignment number based upon a Presidential
           Disaster Declaration.

                    •    First, the disaster has to exceed State and local responders’
                         capabilities.

                    •    Second, the affected State Governor must request assistance from the
                         President.

                    •    Third, the President must sign a Presidential Disaster Declaration
                         starting the FEMA mission assignment process.

           Appendix E shows “Presidential Disaster Declarations” for the affected States
           with FEMA mission assignment numbers.

                   Military Support to Civil Authorities. Military support to civil
           authorities is the most widely recognized form of DoD civil support because it
           occurs in high profile emergencies, such as natural or manmade disasters, like
           Hurricane Katrina. The President and the Secretary of Defense assign missions
           and tasks to USNORTHCOM only after State and local capabilities are exhausted
           or when a unique military capability is required. On October 1, 2002, the
           Combatant Commander, USNORTHCOM, operating under Title 103 assumed
           responsibilities for land, aerospace, and sea defense of North America for
           supporting civil authorities in their response to attacks and natural disasters,

3
    Title 10 is a Federal military force under the command and control of the President of the United States
    and the Secretary of Defense.

                                                       2
           including military support to civil authorities, military support for civilian law
           enforcement agencies, and military assistance during civil disturbances. The 1st
           and 5th U.S. Armies assist USNORTHCOM with providing military support to
           civil authorities. Before Hurricane Katrina, USNORTHCOM was establishing
           Army North as an Army Service Component Command. In October 2005, Army
           North attained initial operational capability. The 5th U.S. Army became U.S.
           Army North during the Hurricane Katrina relief operations. Both 1st and 5th U.S.
           Armies coordinate Federal military assistance for relief operations in their
           respective regions. They provide senior military personnel to fill Defense
           Coordinating Officer (DCO) positions and support staff during an emergency or
           disaster. The DCO is responsible for receiving, validating, and forwarding
           requests for assistance to appropriate military organizations through
           USNORTHCOM to the Secretary of Defense. DoD Title 10 forces operated in
           the joint operations area,4 consisting of the affected states of Alabama, Louisiana,
           and Mississippi, with the National Guard forces.

           The National Guard. Section 502 (f), title 32, United States Code allows
           National Guard units to perform Federal or State missions. National Guard units
           under State Active Duty status perform State missions. National Guard forces
           under either State Active Duty or under Title 32 status are not affected by
           regulations that apply to Title 10 forces. The Governor controls National Guard
           Forces under State Active Duty and Title 32 status. The Governor does not retain
           control of National Guard forces when they are activated in Title 10 status.
           National Guard Forces under State Active Duty status is the military’s first
           responder to a natural disaster occurring in their respective State or Territory.
           Appendix F explains Title 10 and National Guard Relationships.

           National Guard forces deployed under the Emergency Management Assistance
           Compact (EMAC) to provide support during the Hurricane Katrina disaster.
           EMAC is an agreement among participating States, the District of Columbia, and
           U.S. Territories to provide assistance across State lines during a natural or
           manmade emergency if the crisis response requirements exceed a State’s
           capabilities. More than 50,000 National Guard troops from the 50 States, the
           District of Columbia, and three U.S. Territories were deployed under the
           command and control of the affected State Governors. The Hurricane Katrina
           disaster relief operations were the most extensive use of EMAC in its 9 years of
           existence.

           Joint Task Force Katrina. DoD military resources under Title 10 authority
           provided critical personnel and equipment support during Hurricane Katrina relief
           efforts. On August 30, 2005, after the President issued Disaster Declarations,
           USNORTHCOM established and activated Joint Task Force Katrina
           (JTF-Katrina). The mission of JTF-Katrina was to save lives, minimize human
           suffering, and restore critical services while exercising close coordination with
           Federal, State, and local agencies. The Commander, JTF-Katrina had command

4
    A joint operations area is an area of land, sea, and airspace defined by a geographic combatant
    commander or subordinate unified commander, in which a joint force commander (normally a joint task
    force commander) conducts military operations to accomplish a specific mission. Joint operations areas
    are particularly useful when operations are limited in scope and geographic area or when operations are
    to be conducted on the boundaries between theaters.

                                                       3
    and control of more than 20,000 Title 10 forces that were deployed to provide
    disaster relief.


Objectives
    The overall objective was to audit the use of DoD resources in providing relief
    efforts in support of Hurricane Katrina. Specifically, we evaluated the use of
    Title 10 and Title 32 military forces and DoD civilian personnel supporting the
    relief efforts to determine their effectiveness and the impact on readiness and
    logistics support provided by DoD.




                                        4
          DoD Civil Support to Hurricane Katrina
           Upon request from the President and the affected States’ Governors, DoD
           responded overwhelmingly to the relief efforts in the aftermath of
           Hurricane Katrina. More than 70,000 military and civilian personnel
           provided critical resources to civil authorities responding to the disaster
           when State and local resources were exhausted. The DoD response to
           Hurricane Katrina and lessons learned highlighted where DoD can
           improve its future to the National Response Plan (NRP). Specifically,
           USNORTHCOM can improve ongoing planning, coordinating, training,
           and exercising of the NRP with DoD Components and primary Federal
           agencies supporting the plan to better respond and support future natural
           or manmade disasters.


DoD Support to Hurricane Katrina Relief
    Preparation for Hurricane Katrina. The pre-planning and coordination
    between DoD and FEMA for Hurricane Katrina began days prior to Katrina’s
    landfall. On August 23, 2005, DoD began tracking a tropical depression that later
    became Hurricane Katrina. From August 24, 2005, through August 26, 2005,
    DoD through USNORTHCOM, issued orders alerting DoD Components and
    agencies to prepare to provide assistance upon request. During this timeframe,
    DoD, responded to 15 surge and emergency mission assignments that FEMA
    issued for deploying DCOs and supporting staffs and requests to use military
    installations as FEMA operational staging bases. The 1st U.S. Army deployed a
    DCO in an exercise status to Florida, where Hurricane Katrina made its first
    landfall. Later, DCOs and supporting staffs deployed to Alabama, Georgia, and
    Mississippi in anticipation of Hurricane Katrina making its second landfall. The
    5th U.S. Army provided a DCO and support staff for Louisiana before Hurricane
    Katrina made its second landfall on August 29, 2005. The U.S. Joint Forces
    Command provided both 1st and 5th U.S. Army DCOs to work with FEMA
    Federal Coordinating Officers. Appendix G contains the “Timeline of DoD
    Significant Events.”

    DoD Title 10 Missions and Accomplishments. On August 30, 2005, the Deputy
    Secretary of Defense authorized the Joint Chiefs of Staff and USNORTHCOM to
    make available all necessary DoD resources to FEMA for relief efforts. To
    support this mission, USNORTHCOM established and activated JTF-Katrina to
    provide military forces. From August 30, 2005, to October 13, 2005, JTF-Katrina
    forces saved lives, minimized human suffering, and restored critical services in
    coordination with Federal, State, and local agencies.

    On September 4, 2005, JTF-Katrina personnel established a designated joint
    operations area in the affected areas. FEMA initiated 111 mission assignments
    requesting the use of DoD Title 10 resources. Appendix H contains the “FEMA
    Mission Assignments for DoD Resources.”



                                        5
The numerous accomplishments of Title 10 forces during the immediate disaster
relief period include:

       •   conducting air and ground rescue,

       •   searching house-to-house for survivors,

       •   providing communications support,

       •   providing emergency medical care, and

       •   evacuating patients and displaced victims.

In addition to performing relief missions, DoD deployed more than
22,000 military and civilian personnel to JTF-Katrina and provided
mission-essential equipment to the joint operations area. The mission-essential
equipment consisted of:

       •   rotary and fixed wing aircraft,

       •   naval ships with sealift logistics and hospital support capabilities,

       •   satellite communication systems and towers,

       •   high-water vehicles and boats, and

       •   field hospitals and medical equipment.

By September 12, 2005, Title 10 forces under the command and control of
JTF-Katrina peaked at more than 22,000 from all Military Services and civilian
personnel. The Defense Logistics Agency and the U.S. Army Materiel Command
provided critical logistics, commodities, and equipment support. After
September 13, 2005, JTF-Katrina forces began redeploying to their home station,
but were delayed by Hurricane Ophelia, which never made landfall. DoD forces
were also delayed because they supported the recovery and relief efforts after
Hurricane Rita made landfall on September 24, 2005, in Texas and southwestern
Louisiana.

On October 13, 2005, JTF-Katrina departed the joint operations area leaving a
small contingent of Title 10 forces, which included 209 personnel from the
21st Combat Support Hospital, under the command and control of the Louisiana
DCO. On November 16, 2005, when the Louisiana DCO departed the disaster
area, FEMA continued the recovery efforts. Appendix I contains a complete list
of Title 10 accomplishments and equipment supporting hurricane relief efforts.

National Guard Missions and Accomplishments. The National Guard and its
personnel and equipment played a significant role in the relief and recovery
efforts. The Governors of Louisiana and Mississippi requested assistance from
other EMAC member states after declaring a state of emergency. Several Army
and Air National Guard units responded to requests under EMAC. As of
September 8, 2005, all 50 States, the District of Columbia, and three

                                     6
    U.S. Territories were providing disaster relief support in the joint operations area,
    with personnel strength peaking at more than 50,000 troops. During this
    deployment, National Guardsmen saved lives, minimized human suffering,
    assisted law enforcement, and mitigated property damage, while coordinating
    with Federal, State and local agencies in the joint operations area. The National
    Guard also provided mission-essential equipment to the joint operations area.
    Appendix I contains the National Guard’s numerous accomplishments and the
    critical major end items and equipment it used to provide disaster relief.
    Appendix J contains the status of National Guard Forces strength in the Joint
    Operations Area.

    Other DoD Support. The U.S. Army Corps of Engineers is the only DoD
    Component with an assigned function in the NRP. The Corps of Engineers has
    first responder authority under Title 33, Public Law 84-99, Flood Control, and as
    a primary Federal agency for ESF-3, Public Works and Engineering. As of
    September 30, 2005, more than 2,800 Corps of Engineers personnel were in the
    joint operations area. As of April 2006, the Corps of Engineers remained in the
    disaster area performing debris removal and repairs to the New Orleans’ levee
    system.

DoD Civil Support Lessons Learned
    The overall deployment of DoD assets in support of Hurricane Katrina disaster
    relief was the largest use of DoD military and civilian personnel performing a
    civil support mission in the continental United States. DoD Title 10 personnel
    provided the support to the primary Federal agencies that FEMA requested
    through the mission assignment process. Our review of DoD mission
    assignments, including DoD support to FEMA and civil authorities, showed that
    DoD effectively supported all 15 ESFs in the NRP during the disaster relief
    efforts.

    Although DoD forces were recognized for their immediate and overwhelming
    response, lessons learned identified that USNORTHCOM could improve its
    future response and support to domestic crises. Specifically, the planning,
    coordinating, training, and exercising among USNORTHCOM, DoD
    Components, and primary Federal agencies supporting the NRP need to be
    improved. These lessons learned are discussed in the following sections: DoD
    Military Support to Civil Authorities; Joint Reception, Staging, Onward
    Movement and Integration of military forces; Interoperable Communication
    Architecture; DoD Logistics Commodity Support to FEMA; and Civil Support
    Training and Exercises.

            DoD Military Support to Civil Authorities. DoD support to civil
    authorities requires primary and supporting agencies to plan and coordinate their
    plans before and during their response to any emergency or natural disaster.
    Guidance that governs DoD support to civil authorities should reflect changes in
    the designation of executive agency and organizational structure. For example,
    DoD Directive 3025.1, “Military Support to Civil Authorities,” January 15, 1993,
    does not recognize the Assistant Secretary of Defense for Homeland Defense as
    the executive agent for defense support to civil authorities or USNORTHCOM as

                                          7
the supporting combatant command for defense support to civil authorities.
Similarly, DoD Directive 3025.15, “Military Assistance to Civil Authorities,”
February 17, 1997, should also reflect those changes.

The primary Federal agencies drafted 21 of 23 plans supporting the NRP when
Hurricane Katrina made landfall. USNORTHCOM provided the requested
assistance to the primary Federal agencies even though supporting plans and
procedures were not completed. Additionally, the USNORTHCOM “Civil
Support Concept of Employment,” dated May 13, 2005, was still in draft at the
time Hurricane Katrina made landfall. This document summarizes tasks,
planning considerations, and operating processes for civil support from the
strategic to the tactical level, and describes the activities of USNORTHCOM to
execute its civil support responsibilities at the operational level.

Lessons learned from Hurricane Katrina identified that USNORTHCOM did not
coordinate with FEMA on using military assets according to their capabilities; did
not coordinate deploying and integrating Title 10 forces with National Guard
forces’ capabilities; and did not explain the appropriate use of Title 10, Title 32,
and State Active Duty forces. Planning and coordination among
USNORTHCOM, the National Guard Bureau, and primary Federal agencies must
occur in responding to and supporting future relief efforts for natural or manmade
disasters.

Joint Reception, Staging, Onward Movement, and Integration (JRSOI).
USNORTHCOM did not implement a plan to establish a JRSOI area to receive
DoD Title 10 forces during the Hurricane Katrina relief efforts. The JRSOI is
critical in moving military forces into a joint operations area. The JRSOI consists
of the essential processes required to transition arriving personnel, equipment, and
materials into forces capable of meeting operational requirements. Lessons
learned from Hurricane Katrina revealed limited reception, staging, onward
movement, and integration for both DoD Title 10 and National Guard forces that
deployed in the joint operations area. Immediately after Hurricane Katrina made
a second landfall, Title 10 and National Guard forces deployed into the joint
operations area so rapidly that commanders experienced difficulty in managing
forces. The rapid flow of Title 10 and National Guard forces into the joint
operations area led to problems with coordinating the missions performed
between Title 10 and National Guard forces. These coordination problems added
to the existing problems with unity of effort and situational awareness in the joint
operations area. Another factor contributing to the coordination problems was
that the NRP did not provide detailed guidance on how DoD military forces
should be integrated into the Federal response during a natural disaster. Planning
and coordinating Title 10 and National Guard forces that are responding jointly to
future natural or manmade disasters should occur among USNORTHCOM, the
National Guard Bureau, and FEMA. Appendixes J and K show the strength of
National Guard and Title 10 forces deployed in the JTF-Katrina joint operations
area.

Interoperable Communication Architecture. Interoperable communications
provides responders with a common operating picture and the ability to respond
as a cohesive unit. During Hurricane Katrina, communication networks were
among the infrastructures demolished in the Gulf Coast area. Inadequate

                                     8
           communication affected Title 10 and National Guard forces’ relief operations for
           several days. A lack of communications interoperability between Federal and
           State forces significantly degraded the situational awareness and affected the
           integration of Title 10 and National Guard forces within the joint operations area.
           Federal and State communication problems required communication support from
           DoD Title 10 forces. Lessons learned identified the need for planning and
           standardizing interoperable communication capabilities with USNORTHCOM for
           supporting Federal, State, and local first responders during future natural or
           manmade disasters.

           DoD Logistics Commodity Support to FEMA. The Defense Logistics Agency
           (DLA) is the largest DoD combat support agency that stores and distributes DoD
           war reserve materiel. DLA provided critical commodity support to FEMA during
           the Hurricane Katrina relief efforts. FEMA relied heavily on logistical
           commodities, which included Meals Ready-to-Eat, commercial nonperishable
           meals, bulk fuel, vehicles, repair parts and medical supplies. However, the DLA
           mission did not include providing supplies for domestic crises and it did not
           receive funds to support this mission. Lessons learned identified where
           USNORTHCOM logistics personnel can assist FEMA with improving procedures
           for procuring, tracking, and managing critical commodities for future natural or
           manmade disasters.

           Civil Support Training and Exercises. The existing training and exercises of
           DoD, Department of Homeland Security, FEMA, primary Federal agencies, and
           State and local agencies did not adequately prepare them for a disaster such as
           Hurricane Katrina. The Homeland Security Top Officials’ exercises did not
           adequately challenge responding agencies, including DoD, to plan for worst-case
           scenarios. The exercises also did not use DoD active military and Reserve
           Components effectively in their support to civil authorities. For example,
           USNORTHCOM sent two logistics personnel to participate in the Hurricane Pam
           exercise in 2004, but their participation was limited to simulated logistical
           support. Lessons learned from Hurricane Katrina identified a need for
           USNORTHCOM to plan training and exercises with FEMA and primary Federal
           agencies on integrating military forces during a domestic natural disaster. The
           DoD response to Hurricane Katrina highlighted a need for exercising the NRP
           and its approved supporting plans.


Hurricane Katrina’s Effect on DoD Readiness
           The Hurricane Katrina disaster affected DoD installations and facilities.
           Damages to military installations ranged from minor roofing repairs to severe
           flooding. Hurricane Katrina damaged eight Navy installations, three U.S. Army
           Reserve Centers, the Louisiana National Guard Headquarters at Jackson Barracks,
           Louisiana and Keesler Air Force Base, Mississippi. The hurricane damage
           affected the day-to-day operations of DoD units and agencies at these
           installations. Hurricane Katrina affected Army Reserve battle assemblies5 and

5
    Battle Assembly is the U.S. Army Reserve term for weekend drills conducted by Army reservists at their
    home station. It replaced the term drills, unit training attendance, or weekend drills.

                                                      9
           military recruiting centers and also delayed the deployment of some units to
           support ongoing DoD operations. For example, the 1108th Aviation Class Repair
           Activity Depot based in Mississippi was scheduled to deploy to the Middle East;
           however Hurricane Katrina affected some of the personnel assigned to the unit.
           As a result, those members were not able to deploy. The unaffected members
           from the 1108th and volunteers from the 1107th Aviation Class Repair Activity
           Depot were activated to fulfill the mission.

           Hurricane Katrina damaged family homes that affected more than 230,000 DoD
           personnel and their dependents along the Gulf Coast. Safe havens were made
           available to displaced DoD military and civilian families as a result of the
           Hurricane Katrina disaster. Task Force Care6 assisted deployed military members
           and displaced military families. Overall, DoD Components and agencies affected
           by Hurricane Katrina and units that supported disaster relief efforts in the joint
           operations area reported a minimal effect on readiness to their mission or support
           to DoD contingency operations. Based on our review of lessons learned and
           after-action reports, we concur with the DoD assessment that there was minimal
           impact on mission and operational readiness.



Conclusion
The President, the Secretary of Defense, and the Chairman of the Joint Chiefs of Staff
directed DoD military and civilian personnel to support the disaster relief efforts for
Hurricane Katrina on August 29, 2005. The DoD response to Hurricane Katrina was the
largest deployment of military forces in response to a natural disaster in the United
States. Although Hurricane Katrina did affect DoD resources within the disaster area, we
agree with the DoD assessment of a minimal impact on readiness to support ongoing
missions while providing disaster relief assistance. As a supporting agency to the NRP,
DoD accomplished numerous FEMA mission assignments during its disaster relief
efforts. Those accomplishments supported the 15 ESFs in the NRP despite legal
limitations and restrictions placed on DoD military forces. However, DoD support of the
Hurricane Katrina disaster relief efforts highlighted areas that USNORTHCOM could
improve in its defense support to civil authorities. The integration of Title 10 Federal
forces with National Guard forces during disaster relief operations identified areas for
improvement. DoD needs to improve planning and coordinating with the Department of
Homeland Security, Federal agencies, the National Guard Bureau, and the National
Guard. Improvements in those areas will enable DoD to continue to provide timely
assistance to civil authorities if needed during future disaster relief efforts.




6
    Task Force Care was established to provide relief assistance to military personnel and family members
    affected by the Hurricane Katrina disaster.

                                                      10
Management Comments on the Finding and Audit Response
    U.S. Northern Command Comments. The Inspector General, U.S. Northern
    Command concurred with the recommendation, and offered several suggestions to
    improve the clarity of the report. The Inspector General proposed many factual
    and editorial changes.

    The Inspector General stated that the report needs to increase the distinction
    between the U.S. Northern Command and the National Guard Bureau. The
    Inspector General indicated that the National Guard Bureau is a bureau within
    DoD, and not an agency overarching all the States’ National Guard forces. The
    Inspector General also indicated that the report should distinguish the difference
    between Title 32 status forces and State Active Duty forces. A national
    guardsman can be in only one of the two State statuses at any given time. When
    the National Guard was under Title 32 or State Active Duty status, they were
    under the command and control of the State’s Governor.

    The Inspector General indicated that several appendixes should be changed. We
    revised Appendix C, Appendix F, and Appendix J to use the term National Guard
    to include State Active Duty and Title 32 status forces.

    Audit Response. The comments from the Inspector General, U.S. Northern
    Command were partially responsive. We request that the Inspection General,
    U.S. Northern Command, provide additional information on actions proposed to
    address the recommendation. We considered all factual and editorial suggestions
    and revised the final report to include the necessary suggestions that could be
    supported by audit evidence. Based on management comments, we decided to
    replace “State Active Duty” and “Title 32” with “National Guard” whenever
    appropriate to reduce factual misstatements.

    U.S. Air Force Comments. Although not required to respond, the Deputy Chief
    of Staff of Air, Space & Information Operations, Plans & Requirements agreed
    with the finding.

    U.S. Transportation Command Comments. Although not required to respond,
    the Director of Program Analysis and Financial Management agreed with the
    draft report as written.

    National Guard Bureau Comments. Although not required to respond, the
    Chief of Internal Review, National Guard Bureau, agreed with the majority of the
    report. However, he indicated there is a difference between National Guard
    forces under Title 32 and State Active Duty status. The Chief of Internal Review
    also stated that the National Guard supported the relief efforts by assisting law
    enforcement and, although inadequate communications affected the relief efforts,
    they did not delay the National Guard’s response.




                                        11
Recommendations, Management Comments and Audit
 Response
    Revised Recommendations. As a result of management comments, we revised
    draft Recommendation 3.e. to include Department of Homeland Security
    conferences and exercises. We revised Recommendation 3.f. to include
    coordination with the Department of Homeland Security as an agency.

    1. We recommend that the Under Secretary of Defense for Policy update
    DoD Directive 3025.1, “Military Support to Civil Authorities,” to identify the
    Assistant Secretary of Defense for Homeland Defense as the executive agent
    for defense support of civil authorities and the U.S. Northern Command as
    the supporting combatant command for defense support of civil authorities.

    The Under Secretary of Defense for Policy did not comment on
    Recommendation 1. Therefore, we request that the Under Secretary of Defense
    for Policy provide comments on the final report.

    U.S. Northern Command Comments. Although not required to respond, the
    Inspector General, U.S. Northern Command agreed. The Inspector General
    indicated the recommendation should be redirected to the Assistant Secretary of
    Defense for Homeland Defense.

    Audit Response. We did not revise our recommendation because the Under
    Secretary of Defense for Policy is the proponent of DoD Directive 3025.1 and
    thus has the authority and responsibility to update the directive.

    2. We recommend that the Assistant Secretary of Defense for Special
    Operations and Low-Intensity Conflict update DoD Directive 3025.15,
    “Military Assistance to Civil Authorities” to identify the Assistant Secretary
    of Defense for Homeland Defense as the executive agent for defense support
    of civil authorities and the U.S. Northern Command as the supporting
    combatant command for defense support of civil authorities.

    The Assistant Secretary of Defense for Special Operations and Low-Intensity
    Conflict did not comment on Recommendation 2. Therefore, we request that the
    Assistant Secretary of Defense for Special Operations and Low-Intensity Conflict
    provide comments on the final report.


    U.S. Northern Command Comments. Although not required to respond, the
    Inspector General, U.S. Northern Command agreed. The Inspector General
    indicated the recommendation should be redirected to the Assistant Secretary of
    Defense for Homeland Defense.

    Audit Response. We did not revise our recommendation because the Assistant
    Secretary of Defense for Special Operations and Low-Intensity Combat is the
    proponent of DoD Directive 3025.15 and thus has the authority and responsibility
    to update the directive.

                                       12
3. We recommend that the Combatant Commander, U.S. Northern
Command:

      a. Complete and implement plans on military support to civil
authorities for all DoD Components and agencies supporting the National
Response Plan.

U.S. Northern Command Comments. The Inspector General, U.S. Northern
Command concurred.

Audit Response. We request the Inspector General, U.S. Northern Command
provide the estimated date for implementation of actions proposed to address the
recommendation in accordance with DoD Directive 7650.3.

Unsolicited Comments. The Deputy Chief of Staff of Air, Space & Information
Operations, Plans & Requirements concurred without comment. The Chief of
Internal Review, National Guard Bureau concurred without comment. Although
not requested to comment, both the United States Air Force and the National
Guard Bureau agreed with a draft of this report.

        b. Coordinate with the National Guard Bureau for developing a plan
for joint integration of DoD military resources responding to and supporting
the National Response Plan.

U.S. Northern Command Comments. The Inspector General, U.S. Northern
Command concurred.

Audit Response. We request the Inspector General, U.S. Northern Command
provide the estimated date for implementation of actions proposed to address the
recommendation in accordance with DoD Directive 7650.3.

Unsolicited Comments. The Deputy Chief of Staff of Air, Space & Information
Operations, Plans & Requirements concurred without comment. The Chief of
Internal Review, National Guard Bureau concurred without comment. Although
not requested to comment, both the United States Air Force and the National
Guard Bureau agreed with a draft of this report.

       c. Coordinate military communication capabilities with primary
Federal agencies and State and local authorities to improve standardization
and interoperability of communications.

U.S. Northern Command Comments. The Inspector General, U.S. Northern
Command concurred.

Audit Response. We request a date of U.S. Northern Command actions
implementing recommendations in the final report in accordance with DoD
Directive 7650.3.

Unsolicited Comments. The Deputy Chief of Staff of Air, Space & Information
Operations, Plans & Requirements concurred without comment. The Chief of
Internal Review, National Guard Bureau concurred without comment. Although

                                   13
not requested to comment, both the United States Air Force and the National
Guard Bureau agreed with a draft of this report.

        d. Coordinate and support improving the Federal Emergency
Management Agency’s logistical management process and in-transit
visibility for requested equipment and supplies during a domestic crisis.

U.S. Northern Command Comments. The Inspector General, U.S. Northern
Command concurred and requested auditors to include Department of Homeland
Security.

Audit Response. The comments from the Inspector General, U.S. Northern
Command are responsive. We revised the recommendation to include the
Department of Homeland Security, which satisfies the intent of the
recommendation.

Unsolicited Comments. The Deputy Chief of Staff of Air, Space & Information
Operations, Plans & Requirements concurred without comment. The Chief of
Internal Review, National Guard Bureau concurred without comment. Although
not requested to comment, both the United States Air Force and the National
Guard Bureau agreed with a draft of this report.

        e. Plan and coordinate DoD participation in the Department of
Homeland Security and Federal Emergency Management Agency’s domestic
crisis exercises and conferences.

U.S. Northern Command Comments. The Inspector General, U.S. Northern
Command concurred and requested auditors to include Department of Homeland
Security.

Audit Response. The comments from the Inspector General, U.S. Northern
Command are responsive. We revised the recommendation to include the
Department of Homeland Security, which satisfies the intent of the
recommendation.
Unsolicited Comments. The Deputy Chief of Staff of Air, Space & Information
Operations, Plans & Requirements concurred without comment. The Chief of
Internal Review, National Guard Bureau concurred without comment. Although
not requested to comment, both the United States Air Force and the National
Guard Bureau agreed with a draft of this report.

      f. Develop training and exercise programs that support the National
Response Plan in coordination with the National Guard Bureau, the
Department of Homeland Security, and the Federal Emergency Management
Agency.

U.S. Northern Command Comments. The Inspector General, U.S. Northern
Command concurred, and requested auditors to include the Department of
Homeland Security in the recommendation.



                                   14
    Audit Response. The comments from the Inspector General, U.S. Northern
    Command are responsive. We revised the recommendation to include the
    Department of Homeland Security, which satisfies the intent of the
    recommendation.

    Unsolicited Comments. The Deputy Chief of Staff of Air, Space & Information
    Operations, Plans & Requirements concurred without comment. The Chief of
    Internal Review, National Guard Bureau concurred without comment. Although
    not requested to comment, both the United States Air Force and the National
    Guard Bureau agreed with a draft of this report.


Management Comments Required
    The Under Secretary of Defense for Policy did not comment on a draft of this
    report. We request that the Under Secretary of Defense for Policy provide
    comments on the final report.

    The Assistant Secretary of Defense for Special Operations and Low-Intensity
    Conflict did not comment on a draft of this report. We request that the Assistant
    Secretary of Defense for Special Operations and Low-Intensity Conflict provide
    comments on the final report.




                                        15
Appendix A. Scope and Methodology
    We reviewed the use of DoD resources in supporting the Hurricane Katrina
    disaster relief efforts. Also, we evaluated whether the readiness of DoD
    Components located in the affected area and those supporting the Katrina disaster
    relief efforts was affected. We researched applicable laws and regulations
    including Title 10, United States Code; Title 32, United States Code; the Posse
    Comitatus Act; the Stafford Act; and the Emergency Management Assistance
    Compact. We also reviewed documents containing policy and guidance on the
    National Response Plan and DoD Directives 3025.1 and 3025.15.

    We sent questionnaires to various military units who supported the disaster relief
    efforts to gather as much information as possible to determine what support was
    rendered and potential lessons to be learned. We met with officials at the
    Government Accountability Office, the Air Force Audit Agency, the Army Audit
    Agency, and the Naval Audit Service to minimize duplicating information that
    might be reported as a result of several other audits with similar interest. We also
    met with USNORTHCOM, U.S. Transportation Command, U.S. Joint Forces
    Command, U.S. Forces Command, U.S. Army Reserve Command, and the
    National Guard Bureau to discuss their roles in supporting Hurricane Katrina
    disaster relief.

    We performed this audit from October 2005 through March 2006 in accordance
    with generally accepted government auditing standards.

    We did not review any management control program because the review of the
    management control program was not an announced objective.

    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of the DoD Approach to Business Transformation high-risk
    area.


Prior Coverage
    No prior coverage has been conducted on the use of DoD resources supporting
    hurricanes during the last 5 years.




                                         16
Appendix B. Glossary
   Defense Coordinating Officer. A military or civilian official who has been
   designated by the Department of Defense to exercise some delegated authority of
   the Department of Defense executive agent to coordinate military support to civil
   authorities activities.

   Emergency Support Function. Government and certain private sector
   capabilities that are grouped into an organizational structure to provide the
   support, resources, program implementation, and services that are most likely to
   be needed to save lives, protect property and the environment, restore essential
   services and critical infrastructure, and help victims and communities return to
   normal, when feasible, following domestic incidents.

   Execute Orders. Orders issued by the Chairman, Joint Chiefs of Staff, by the
   authority and at the direction of the Secretary of Defense, to implement a National
   Command Authorities’ decision to initiate military operations.

   Federal Coordinating Officer. An official appointed by the Director, Federal
   Emergency Management Agency, on behalf of the President, to coordinate
   Federal assistance to a State affected by a disaster or emergency. The Federal
   Coordinating Officer is the DoD liaison with the Federal Emergency Management
   Agency during the disaster.

   First Responders. These are local and nongovernmental police, fire, and
   emergency personnel who, in the early stages of an incident, are responsible for
   protecting and preserving life, property, evidence, and the environment.

   Incident. An occurrence that requires emergency service personnel to prevent or
   minimize loss of life or damage to property or natural resources.

   Natural Disaster. Any natural event or incident (hurricane, tornado, storm,
   flood, high water, wind-driven water, tidal wave, tsunami, earthquake, volcanic
   eruption, landslide, mudslide, snowstorm, drought, wildlife fires or other natural
   occurrence causing significant damage) producing severe and widespread damage
   of such magnitude as to require significant resources from outside the affected
   area to provide the necessary response. A wide range of natural disasters can
   quickly produce an overwhelming demand on the abilities of local, State, and
   Tribal government to cope with the scale and magnitude of the disaster.

   Presidential Declared Disaster. Any natural catastrophe (hurricane, tornado,
   storm, high water, wind driven water, tidal wave, tsunami, earthquake, volcanic
   eruption, landslide, mudslide, snowstorm, or drought) or any fire, flood, or
   explosion, in any part of the United States, which the President determines caused
   damage of sufficient severity and magnitude to warrant major disaster assistance
   under the Robert T. Stafford Act to supplement the available resources of State,
   local governments, and disaster relief organizations in alleviating the damage,
   loss, hardship, or suffering.


                                       17
Support Agency. A Federal Department or agency designated to assist a specific
primary agency with available resources, capabilities, or expertise in support of
Emergency Support Functions response operations.




                                   18
Appendix C. DoD Civil Support Guidance
   Robert T. Stafford Relief Act, October 30, 2000 (sections 5121-5204c, title 42,
   United States Code). The Stafford Act (the Act) enables the Federal
   Government to provide orderly assistance to State and local governments in
   carrying out their responsibilities to alleviate the suffering and damage resulting
   from disasters. The Act establishes a program for disaster preparedness and
   response, which the President delegated to the Department of Homeland Security,
   FEMA. The Act includes the procedures for declaring an emergency or major
   disaster, and the type and scope of Federal assistance available. The Act also
   authorizes the President to provide DoD assets for relief. The President may
   direct any Federal agency, with or without reimbursement, to use its authorities
   and resources to support a State and local response.

   DoD Directive 3025.1, “Military Support to Civil Authorities,” January 1993,
   and DoD Directive 3025.15, “Military Assistance to Civil Authorities,”
   February 1997. These two directives govern all DoD civil support within the
   50 States, District of Columbia, and U.S. Territories. The directives establish the
   local commander’s authority to provide immediate assistance when serious
   conditions exist and time does not permit prior approval from higher
   headquarters. DoD Directive 3025.1 states that DoD Components cannot procure
   or maintain supplies, materiel, or equipment exclusively for providing military
   support to civil authorities and emergencies unless otherwise directed by the
   Secretary of Defense. This directive also appoints the Secretary of the Army as
   the DoD Executive Agent to assist the Secretary of Defense in executing his
   responsibility to provide military support to civil authorities. DoD
   Directive 3025.15 outlines the approval process for requests for assistance. The
   Director of Military Support, the Secretary of the Army (as the Executive Agent),
   and, in some cases, the Secretary of Defense must evaluate each request against
   the following criteria: appropriateness, cost, legality, lethality, readiness, and risk.

   Posse Comitatus Act, 1994 (section 1385, title 18, United States Code). The
   Posse Comitatus Act, along with supporting legislation and regulations, prohibits
   the Army, Air Force, Navy, and Marine Corps from performing law enforcement
   functions (arresting, pursuing, searching, or seizing) against U.S. civilians. The
   Posse Comitatus Act does not apply to military operations, such as flying
   defensive missions over U.S. cities, protecting military installations, or enforcing
   law and regulations on military installations. The Posse Comitatus Act does not
   apply to the National Guard when it is operating at the direction of the State
   Governor in a Title 32 or State active duty status; it only applies in a Federal
   (Title 10) status.




                                         19
Appendix D. National Response Plan Emergency
            Support Functions

ESF            Emergency Support Function                        Primary Agency

 1    Transportation                                Department of Transportation

 2    Communications                                Department of Homeland Security

 3    Public Works and Engineering                  DoD & U.S. Army Corps of Engineers

 4    Firefighting                                  Department of Agriculture

 5    Emergency Management                          Department of Homeland Security

 6    Mass Care, Housing, and Human Services        Department of Homeland Security

 7    Resource Support                              General Services Administration

 8    Public Health and Medical Services            Department of Health and Human Services

 9    Urban Search and Rescue                       Department of Homeland Security

                                                    Department of Homeland Security-U.S.
10    Oil and Hazardous Materials Response
                                                    Coast Guard

11    Agriculture and Natural Resources             Department of Agriculture

12    Energy                                        Department of Energy

13    Public Safety and Security                    Department of Homeland Security

14    Long-Term Community Recovery and Mitigation   Department of Homeland Security

15    External Affairs                              Department of Homeland Security




                                               20
Appendix E. Presidential Disaster Declarations


                    State                       Declaration Number1              Date of Approval

                   Florida                            DR-1602-FL                      8/28/2005

                 Louisiana                            DR-1603-LA                      8/29/2005

                 Mississippi                          DR-1604-MS                      8/29/2005

                  Alabama                             DR-1605-AL                      8/29/2005



                    Request for Assistance at the Disaster Field Site

      1. State or local agencies unable to provide a capability to respond to an incident.
      2. Request for assistance is forwarded to State Coordinating Officer in the form of a FEMA
         Assistance Request Form and presented to the Federal Coordinating Officer.
      3. The State Coordinating Officer develops an Action Request Form and presents it to the
         primary Federal agencies to review and analyze.
      4. If the primary Federal agency cannot provide support, a request form is sent to Defense
         Coordinating Officer. If DoD is able to support the request, the Defense Coordinating
         Officer validates the request and returns it to the Federal Coordinating Officer.
      5. If the Federal Coordinating Officer validates the request, then the Action Request Form
         becomes a validated mission assignment.
      6. The Defense Coordinating Officer, the Joint Forces Commander, or the Joint Task Force
         can review a validated mission assignment.
      7. The mission assignment form is routed from the Defense Coordinating Officer to the
         Joint Director of Military Support via USNORTHCOM, who reviews it and initiates
         mission analysis. The mission assignment is forwarded to Joint Director of Military
         Support, the Assistant Secretary of Defense (Homeland Defense), and the Secretary of
         Defense for approval.
      8. Upon Secretary of Defense’s approval, the Joint Director of Military Support issues an
         execute order to USNORTHCOM, supporting combatant commands, Military
         Components, and agencies, as applicable.




1
    FEMA mission assignment number with the assigned Presidential Disaster Declaration.

                                                    21
Appendix F. Relationships Between Title 10
            Forces and the National Guard
                         Federal ----------------------------------- State
                                                      National Guard                State Active
     Issue        Active Duty Title 10
                                                          Title 32                     Duty
                   President, in accordance
                    with Title 10, with the
                                                   Title 32 United States Code
                   consent of the Governor,
                                                     §502 (f) allows units to         Governor, as
 Authority to     unless called to active duty
                                                     accomplish training for         determined by
 order to duty   under an involuntary call-up
                                                   Federal missions, or other         state statute
                       authority (partial
                                                   missions approved by DoD
                     mobilization, or total
                         mobilization)
                                                  State chain – National Guard
                                                  commander retains command
                                                    over those National Guard
                                                  members when participating
                     Federal chain to the
Command and                                          in exercises with Federal
                 President as Commander-in-                                           State chain
  Control                                                troops, but has no
                            Chief
                                                   jurisdiction over the Federal
                                                       troops or the Federal
                                                     installation, regardless of
                                                                rank
                                                                                    State Code of
                                                                                   Military Justice or
Uniform Code                                     State Code of Military Justice
                                                                                      equivalent
                  Uniform Code of Military         or equivalent applies, plus
 of Military         Justice in Title 10              limited courts martial
                                                                                     applies, plus
   Justice                                                                          limited courts
                                                    authority under Title 32
                                                                                   martial authority
                                                                                    under Title 32
    Posse
                           Applies                       Does not apply             Does not apply
  Comitatus
                                                                                    State funded –
                                                                                       could be
                                                                                    reimbursed if
 Duty Funding      Department of Defense             Department of Defense           performing
                                                                                     mission for
                                                                                   Federal entity or
                                                                                       function




                                             22
Appendix G. Timeline of DoD Significant Events
August 19, 2005      Secretary of Defense approved Severe Weather Execution Order
                     for hurricane season.

August 23, 2005      First U.S. Army and USNORTHCOM began tracking a tropical
                     depression that later became Hurricane Katrina.

August 26, 2005      Defense Coordinating Officer (DCO) deployed to Florida.

August 28, 2005      DCOs deployed to Mississippi and Louisiana.
                     President issued a Disaster Declaration for Florida.
                     Hurricane Katrina Joint Staff Response Cell operating 24/7.
                     The President directed the Secretary of Defense to “lean forward”
                     regarding Hurricane Katrina relief efforts.

August 30, 2005      USNORTHCOM established and activated JTF-Katrina.

September 4, 2005    President ordered 7,200 troops to the joint operations area.

September 8, 2005    National Guard forces peaked at 50,625 personnel in the joint
                     operations area.

September 13, 2005 DoD Title 10 forces peaked at 22,670 personnel in the joint
                   operations area.
                   JTF-Katrina shifted from disaster relief to recovery operations.
                   Over 67,000 active and reserve component troops in the joint
                   operations area.

September 23, 2005 U.S. Corps of Engineers drained 95 percent of New Orleans.

October 11, 2005     Engineers drained flood waters caused by Hurricane Rita.

October 13, 2005     After 45 days in the joint operations area, JTF-Katrina redeployed.
                     Louisiana Defense Coordinating Officer assumed control of Title
                     10 forces in Louisiana

November 16, 2005 After 80 days in the joint operations area, Louisiana Defense
                  Coordinating Officer departed Louisiana.




                                          23
Appendix H. Federal Emergency Management
            Agency Mission Assignments for
            DoD Resources
                      Status as of
                                                    FEMA Mission Assignments
                       21 Dec 05
                                                               Cancelled/
     State            Dollar Value       With Funds                              Total Tracked
                                                               Replaced
 Alabama          $       2,560,000             5                   5                  10

 Florida          $         150,000             3                   3                   6
 Louisiana        $     809,982,200           26                   23                  49
 Mississippi      $ 1,324,370,800             24                   19                  43
 Texas            $          70,000             3                   0                   3
     Total        $ 2,137,133,000             61                   50                 111




                            Types of Mission Assignments

There are three types of mission assignments, each corresponding to a phase of a disaster
declaration. FEMA prepares the surge series mission assignment in anticipation of an emergency
or natural disaster occurs to pre-position materials that it may need; an emergency series mission
assignment is prepared when an emergency is declared; and a disaster relief mission assignment
is prepared after the President declares a national disaster.




                                               24
Appendix I. Accomplishments and Equipment of
            Title 10 Forces and the National
            Guard

 Title 10 Accomplishments                      Title 10 Equipment
 •Air and ground rescue operations             •Rotary and fixed wing aircrafts
 •House to house search for survivors          •Naval ships with logistical support
 •Communications support                       •Combat support hospitals
 •Emergency medical care                       •Medical equipment and kits
 •Patients and displaced victims evacuation    •Engineer support equipment
 •Airfield and airport operations              •Satellite communication systems
 •Re-supply of food, ice, water, and fuel      •Land mobile radios
 •Dewatering and levee repair                  •High water vehicles and cargo trucks
 •Ports and waterways clearing                 •Tank and pump units
 •Human remain collection                      •Zodiac boats
 •Damage assessment reporting                  •Water purification units
 •Restoring infrastructure                     •Forklifts and K-loaders
 •Debris removal                               •Generators and tents
 •Mosquito abatement spraying                  •Laundry and bath units
                                               •Digital video and imagery systems



 National Guard Accomplishments                National Guard Equipment
 •Law enforcement support                      •Rotary and fixed wing aircrafts
 •Search and rescue operations                 •Medical equipment and kits
 •Medical and shelter support                  •Engineer support equipment
 •Food and water distribution                  •High water vehicles and cargo trucks
 •Levee repair                                 •Zodiac boats
 •House to house search for survivors          •Water purification units
 •Superdome evacuation                         •Satellite communications equipment
 •Patients and displaced victims evacuation    •Tank and pump units
 •Refineries security                          •Forklifts and K-loaders
 •Traffic control checkpoints                  •Laundry and bath units
 •Communication support                        •Fire trucks
 •Emergency medical care                       •Tents and generators
 •Mosquito abatement spraying
 •Debris removal



                                              25
Appendix J. Strength of National Guard Forces
            in the Joint Operations Area
                                                         National
                         Army             Air             Guard
                                                                         Total National
    As of Date          National        National       External Joint
                                                                          Guard Force
                         Guard           Guard          Operations
                                                           Area
August 28, 2005            4,444                932               0             5,376
August 29, 2005            6,908                933               0             7,841
August 30, 2005            9,668                956               0            10,624
August 31, 2005           10,428                960             522            11,910
September 1, 2005         14,284                972             522            15,778
September 3, 2005         24,548            2,034               923            27,505
September 4, 2005         29,588            3,244             1,035            33,867
September 8, 2005         40,667            5,321             4,637            50,625
September 12, 2005        41,530            4,032             2,470            48,032
September 23, 2005        30,091            3,445             2,070            35,606
September 29, 2005        25,550            4,271             1,731            31,552
October 8, 2005           18,229            3,611               534            22,374
Source: National Guard Bureau

This table does not include National Guard transient air crews deploying to and from the
joint operations area.




                                           26
Appendix K. Strength of Title 10 Forces in the
            Joint Operations Area
                          JTF-Katrina           JTF-Katrina          Total Title 10
        Date
                            (Main)               (Forward)              Force
September 1, 2005              104                   163                   267
September 3, 2005              148                   694                   842
September 4, 2005              191                 9,775                 9,966
September 9, 2005              228                19,224                19,452
September 12, 2005             246                22,424                22,670
September 24, 2005             287                14,373                14,660
September 29, 2005             288                10,996                11,283
October 8, 2005                  49                1,134                 1,183
November 7, 2005                  0                  221                   221


October 13, 2005 – JTF-Katrina passed Title 10 authority to the Louisiana DCO.

November 15, 2005 – 209 personnel from the 21st Combat Support Hospital departed
Louisiana.

November 16, 2005 – The Louisiana DCO and element departed the joint operations
area.




                                          27
Appendix L. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Acquisition Resources and Analysis
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Under Secretary of Defense (Personnel and Readiness)
Under Secretary of Defense for Policy
Director, Program Analysis and Evaluation
Director, Defense Procurement and Acquisition Policy

Joint Staff
Director, Joint Staff

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army
Director, Army National Guard
Head Commander, U.S. Army Materiel Command

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Director, Air National Guard

Combatant Commands
Commander, U.S. Northern Command
Commander, U.S. Joint Forces Command
Commander, U.S. Pacific Command
Commander, U.S. Transportation Command



                                          28
Other Defense Organizations
Director, Defense Logistics Agency
Chief, National Guard Bureau

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        29
U.S. Northern Command Comments
                                 Final Report
                                  Reference




                   31
     Final Report
      Reference




32
Final Report
 Reference




               33
     Final Report
      Reference




     National
     Guard
     Bureau
     reviewed
     draft report


     No change
     Pg ii




     No change
     Pg ii




34
Final Report
 Reference




No change
Pg 3




No change
Pg 3



Revised
Pg 4




Deleted
Pg 4




No change
Pg 4




               35
     Final Report
      Reference




     Added
     Pg 4




     Revised
     Pg 4




     Revised
     Pg 4




36
Final Report
 Reference




Revised
Pg 4




Revised
Pg 4




No change
Pg 4




No change
Pg 4




No change
Pg 4




               37
     Final Report
      Reference




     Revised
     Pg 4




     Revised
     Pg 4




     Revised
     Pg 4




38
Final Report
 Reference




No change
Pg 6




Revised
Pg 7




No change
Pg 7




               39
     Final Report
      Reference




     No change
     Pg 7




     Revised
     Pg 7




     Deleted
     Pg 8




     Deleted
     Pg 8

     Revised
     Pg 8




40
Final Report
 Reference




No change
Pg 8




Deleted
Pg 8


No change
Pg 8




Revised
Pg 9




No change
Pg 9




               41
     Final Report
      Reference




     No change
     Pg 9




     No change
     Pg 9


     Revised
     Pg 10
     No change
     Pg 10



     No change
     Pg 10




     No change
     Pg 10




42
Final Report
 Reference




Revised
Pg 11




Revised
Pg 11




No change
Pg 13




No change
Pg 14




               43
     Final Report
      Reference




     Added
     Pg 15
     No change
     Pg 17

     No change
     i




     No change
     i




     No change
     2




44
Final Report
 Reference




Revised
Pg 4




Revised
Pg 4




               45
     Final Report
      Reference




     Deleted
     Pg 4




     Deleted
     Pg 4




46
Final Report
 Reference




Revised
Pg 4




No change
Pg 6




Revised
Pg 7




               47
     Final Report
      Reference




     No change
     Pg 9




     Revised
     Pgs 13 & 14




48
Final Report
 Reference




Revised
Pg 20




Revised
Pg 23




Revised
Pg 23




               49
     Final Report
      Reference




     Revised
     Pg 27




     Revised
     Pg 29




     Added
     Pg 29




     Added
     Pg 30




50
               U.S. Air Force Comments
Final Report
 Reference




                                    51
U.S. Transportation Command Comments
                                       Final Report
                                        Reference




                    52
               National Guard Bureau Comments
Final Report
 Reference




                                   53
     Final Report
      Reference




54
Final Report
 Reference




Revised
Pg 4




Revised
Pg 4




Revised
Pg 4




               55
     Final Report
      Reference




     Revised
     Pg 7




     Added
     Pg 8




     Revised
     Pg 10




56
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Readiness and Operations Support prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Wanda A. Scott
Donald A. Bloomer
Keith M. Owens
Leon D. Bryant
Takia A. Matthews
Bryan M. Chavez
Anthony M. Torres
Alan J. Woolard
Jacqueline N. Pugh
